 On 3 December 1997, the complainant1 contacted OIG and alleged that her termination as
 project director of an NSF-supported effort violated NSF's General Grant Conditions (GC-
 I ) . This effort was funded as a supplement to an NSF Alliance cooperative agreement2 She
 said that the idea for the effort was hers and she had written the "proposal." She alleged that
 the idea had been misappropriated by the Alliance Project ~ i r e c t o ?and subject of this case,
 because he, not she, was named as the PI of the project, and she was being removed as the
 project director.

OIG learned from the complainant that her contract as project director had not been renewed
but that she would still be allowed to participate inthe project. She said she had protested
her removal to highly placed academic officials4 who "each wrote letters requesting
compliance with [the subject's] request."

Article 1 of NSF's Grant General Conditions (GC-I, 10/95) stipulates that " [allthough the
grantee is encouraged to seek the advice and opinion of NSF on special problems that may
arise, such advice does not diminish the grantee's responsibility for making sound . . .
administrative judgments and should not imply that the responsibility for operating decisions
has shifted to NSF." With regard to the removal or absence of project personnel, Article 8 of
NSF's GC-I specifies that in the case of absence or change of PI, the PI must notify NSF and
the institution's Authorized Organizational ~e~resentative     (AOR); it does not stipulate
conditions for the removal of other project personnel. In contrast, transfer of project effort or
a change in a h d e d effort's scope must be approved by NSF, and must be communicated to
NSF in writing and countersigned by the AOR and PI.

The NSF Alliance cooperative agreement program jacket contained a message from the
subject that documented his decision to replace the complainant as the project director. He
explained that the project had fallen behind in meeting its goals. He planned to replace .the
complainant with a professional manager and to implement a program to ensure that the




                                  -
project achieved its goals. Two NSF program managers5 and. the Division Director were


' The c   o m p l a i n a n t , is a faculty member at 4-(the                          University) in
m
-
  The NSF cooperative agreement,                     was made between NSF and t              h              d (the




-
State Board) to support                                             the Alliance). The Alliance Project Director is




                                                                                                         -
the subiect of this case.                                                                      t


' The Alliance Project Director is                    the                                                    at the
University.                                                                   is named as the co-PI, butwas not
identified by the complainant as a subject in this case.
  The oficials were ,b-                     the i          s             )            the 4
                                                                                     -,
(unidentified by the complainant), and
 The program managershare  -1                       and 0.             Both program managers are in the
                            program-in the Division of Human Resource Development in the Directorate for
Education and Human Resources.


                                            page 1 of 2
 informed of the PI's deci~ion.~
                              The complainant raised the university's and the PI's decisions
 with the NSF program manager7 who concluded that her removal did not require NSF
 approval.

OIG could find no evidence that the terms of the GC-1 had been violated by the subject's
decision. The complainant was not the,PI of the cooperative agreement and the scope of the
project had not changed. In fact, the subject described his plan for ensuring the completion
of the funded effort. Further, the PI's decision was apparently endorsed by the grantee. The
university officials to whom the complainant appealed instructed her to comply with the PI'S
decision. NSF has reviewed the PI's decisions on two occasions. ~ i k t when,     the subject
informed NSF of his decision and, second, when the complainant raised the issue with the
program manger. OIG concluded that the PI was within his authority to replace the
complainant.

With regard to the complainant's allegation of that the idea had been misappropriated, she
explained that the project "writing team" consisted of her and two other individuals8(who are
identified in the supplement as project participants). The complainant said the idea for the
project "was conceived by" one of the other project participants and the "the first draft of [the
effort] was from the prospectus" provided to her by that participant.9 She explained that an
early draft of the project had been approved by the State Board, that the team was assisted by
the Alliance cooperative agreement project manager, and that it was submitted as a
supplement to the Alliance effort.

OIG concluded that there was no substance to the allegation of misappropriation. There is no
evidence that any individual associated with the project or the Alliance attempted to claim
credit for the idea when the grantee submitted it to NSF as a supplement to an existing NSF
award or when she was named as its director rather than its principal investigator. Further,
her removal as project director was apparently a result the grantee's evaluation of her
management skills, not an attempt to claim credit for the idea.

This inquiry is closed and no further action will be taken in this case.

cc: Staff Scientist, Legal, AIG-Oversight, IG




 The Division Directorb-si
'The program manager1-(si

0
 The participants are -Alumni
                    andb
                       {-                            '
                                           Distinguished Professor1 in -the 1
                                          Professor of               a n d j e c t Director at the

 The participant w.a-


                                      page 2 of 2                               M98-0 1
